Genesis Credit® Account
First Electronic Bank
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases
Paying Interest

24.90%

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

We will begin charging interest on purchases on the transaction date.

Fees
Annual Fee

None

Penalty Fees
Ÿ Late Payment
Ÿ Returned Payment

Up to $39
Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See the “How
Interest Charges are Determined” section of the Genesis Credit Account Agreement below for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the “Your Billing
Rights – Keep This Notice for Future Use” section of the Genesis Credit Account Agreement below.

Genesis Credit® Account Agreement
Dear Accountholder:
This Agreement, as defined below, is your contract for your Account and:
• Covers the terms that govern the use of your Genesis Credit Account;
• Outlines both your responsibilities and ours;
• Includes certain disclosures required by the Federal Truth in Lending Act;
• Includes certain disclosures required by the Federal Military Lending Act;
• Includes an Arbitration of Disputes Provision that will substantially affect your rights unless you reject it, and;
• Contains important information about your Account.
We encourage you to read the Agreement and keep it for your records. Please feel free to call us with any questions you may have. We look forward to serving you.
This Agreement begins on the earlier of (1) the date we approve your Application, or (2) the first date that we extend Credit to you on your Account, as evidenced by a signed sales slip
or other evidence of indebtedness.
DEFINITIONS
To simplify this Agreement for you, the definitions listed below will apply throughout, both
in this Agreement and in your monthly statements. In addition, the words you, your, and
yours refer to the Accountholder(s) who hold(s) the Account Number and is responsible
for the Account, each of whom is individually and jointly obligated under this Agreement.
The words we, us, and our refer to First Electronic Bank.
Account: Genesis Credit Account for which you were issued an Account Number and
that is subject to all of the terms and conditions of this Agreement.
Account Number: The Account Number we issue that you may use to make Purchases
from Retailer. Use of your Account Number to obtain Credit will be considered a use of
the Account.
Accountholder: The person to whom an Account Number is issued, or who has agreed to
pay obligations arising from an Account Number issued to another person.
Agreement: Your contract with us for your Account, which is composed of your
Application, and the Account opening disclosures and this Account Agreement. Any
sales slip or other evidence of indebtedness on your Account is incorporated into and
made part of this Agreement.
Application: The form with information that you submitted to apply for your Account,
including your signature (in any form – wet signed, electronic, or digital), and any
acceptance certificate or other request that you signed or otherwise submitted to obtain
this Account.
Billing Cycle: The time interval covered by a monthly statement. Each Billing Cycle is
approximately 30 days in length.
Card: Any branded Card we issue that you may use to purchase goods or services from
Retailer. Use of your Card to obtain Credit will be considered use of the Account.
Closing Date: The date of the last day of a Billing Cycle.
Covered Borrower: Certain members of the Armed Forces and their dependents who are
protected by the Military Lending Act.
Credit: The credit extension you receive under this Agreement.
Credit Limit: The maximum amount of Credit available to you on your Account. Your
Account Credit Limit will be disclosed to you on the monthly statements.
New Balance: The total outstanding Account balance on the Closing Date specified in
your monthly statement.
Previous Balance: The balance of your Account at the beginning of a Billing Cycle. This
will be the same as the “New Balance” shown on the previous monthly statement.
Purchase: An extension of Credit to your Account for the purpose of purchasing goods or
services from Retailer.

and interest charges on Purchases. In the event you do not pay a Purchase balance in
full before the end of a deferred interest period, the interest accrued during the deferred
interest period will be added to your Regular Balance. Any subsequent interest charges
accrued on such amounts will also be added to the Regular Balance.
Retailer: Participating Test Partner 1 locations located in the U.S.
USING YOUR ACCOUNT
Purchases. You may use your Account to purchase goods and services from Retailer.
You promise to pay us and are liable for all amounts resulting from the authorized use of
your Account Number or Account, plus any applicable interest charges and other
applicable charges or fees, payable in U.S. dollars.
Your Credit Limit. You may not use your Account in any way that would cause you to
go over your Credit Limit. We may refuse to authorize or accept any transaction on your
Account if (1) that transaction would cause you to exceed your Credit Limit or (2) your
Account is delinquent. We may temporarily agree to allow you to exceed your Credit
Limit. If we do so, in that case, you must repay the excess amount according to the terms
of this Agreement. Any transactions honored in excess of your Credit Limit will not result
in an increase of your Credit Limit.
MAKING PAYMENTS
Monthly Statements. We will send a statement at the end of each monthly Billing Cycle
if there is a debit or credit balance on your Account of $1 or more, a balance on which an
interest charge has been imposed or as otherwise required by applicable law. You agree
to pay us, or any party to whom we may transfer and assign your Account or the amounts
owing under your Account, in U.S. dollars according to all terms and conditions of this
Agreement. Payments made by a check, money order or other negotiable instrument
must be in a form acceptable to us and drawn on a U.S. financial institution.
Monthly Minimum Payment. Your monthly minimum payment due will be the greater
of:
1.
$15; or
2.
The sum of:
a.
Each fixed monthly payment amount applicable to each
of your Purchases (described below), plus
b.
5% of your Regular Balance.
Each Purchase will have a fixed monthly payment amount which we calculate when the
Purchase is posted to your Account. We determine the fixed monthly payment amount for
a Purchase by multiplying the Purchase amount by 5%, and then rounding the result to
the nearest dollar. If the remaining balance of a Purchase plus accrued interest on that
Purchase is less than the fixed monthly payment amount, we will reduce the fixed
monthly payment amount for that Purchase accordingly. We will continue to include the
fixed monthly payment amount for a Purchase in the monthly minimum payment due until
the Purchase plus accrued interest on that Purchase is paid in full.

Purchase Balance: The total outstanding balance of Purchases and interest charges,
excluding amounts included in the Regular Balance.
Regular Balance: The total outstanding balance of all amounts other than Purchases
Page 1 of 4
0000000000000000 000001 0002 0005 0 1 0 0 0

FEB 1993-1
2oz - #10 - 1 - 2

If you make a payment in excess of the monthly minimum payment due for any month, it
will not reduce the fixed monthly payment amount applicable to any Purchase that is
used to calculate your monthly minimum payment due in subsequent months, but it may
result in your paying off a Purchase more quickly.
Your monthly minimum payment due also will include the greater of (i) any past due
amount, or (ii) any amount by which the New Balance exceeded your Credit Limit. Your
monthly minimum payment due will never exceed your New Balance.
Payments should be mailed with the payment coupon and in the envelope provided and
following the other instructions on the monthly statement to Genesis FS Card Services,
P.O. Box 84049, Columbus, Georgia 31908. Any payment we receive in that form and at
that address on or before 5:00 P.M. Eastern Time on a normal banking day will be
credited to your Account that day. If we receive your payment in that form and at that
address after 5:00 P.M. Eastern Time on a normal banking day, or any time on a
non-banking day, we will credit it to your Account the next banking day. Please allow at
least seven (7) business days for postal delivery. Payments we receive at any other
location or in any other form may not be credited as of the day we receive them. If we
accept a payment at some other place, we may delay the crediting of the payment for up
to five (5) days. This may cause you to incur Late Payment Fees and additional interest
charges, and may result in your Account being declared in default.
When you provide a check as payment, you authorize us either to use information from
your check to make a one-time electronic fund transfer from your account or to process
the payment as a check transaction. When we use information from your check to make
an electronic fund transfer, funds may be withdrawn from your account as soon as the
same day we receive your payment and you will not receive your check back from your
financial institution.
At any time, you may pay part or all you owe on your Account without incurring any
additional charge for prepayment. The amount of any payment that exceeds your total
New Balance will be applied as a credit to your Account, and any remaining credit
balance will be refunded as required by law.
Credit availability may be delayed at our sole discretion to ensure payment in good funds,
and your total Credit Limit may not reflect your payments for up to 14 days.
Application of Payments. For each Billing Cycle, we will allocate payment amounts up
to your monthly minimum payment to charges and principal due (including new
transactions) in any way we determine. We will generally apply payment amounts up to
your monthly minimum payment in a manner most favorable or convenient for us.
For each Billing Cycle, to the extent your payments exceed your monthly minimum
payment, we will apply these excess amounts in the order required by applicable law.
HOW INTEREST CHARGES ARE DETERMINED
Your Interest Rate. We use a daily periodic rate to calculate the interest on your
account. The daily periodic rate is the applicable APR multiplied by 1/365. The daily
periodic rate for your account is 0.0682% and the applicable APR is 24.90%.
When We Charge Interest. We charge interest on your Purchases from the date you
make the purchase until you pay the purchase in full.
How We Calculate Interest. We calculate interest separately for each balance segment
on your Account. We do this by applying the daily periodic rate to your average daily
balance (including new Purchases), and then multiplying the resulting number by the
number of days in the Billing Cycle for each balance segment. An average daily balance
is calculated for the following balance segments as applicable: Purchase Balance
segments and the Regular Balance segment.

1-866-502-6439.
Statement of MAPR Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an Annual Percentage Rate of 36%. This rate must include, as
applicable to the credit transaction or account: (1) the costs associated with credit
insurance premiums; (2) fees for ancillary products sold in connection with the credit
transaction; (3) any application fee charged (other than certain application fees for
specified credit transactions or accounts); and (4) any participation fee charged (other
than certain participation fees for a credit card account).
Oral Disclosures In order to hear important disclosures and payment information about
this Agreement, you may call 1-866-875-5929.
Applicability of Arbitration of Disputes Provision
The Arbitration of Disputes Provision set forth in this Agreement does not apply to you if,
as of the date of this Agreement, you are a Covered Borrower.
LOST ACCOUNT NUMBER AND UNAUTHORIZED USE
If your Account Number is lost or stolen or used without your consent, you may be liable
for the unauthorized use of your Account, but you will not be liable for unauthorized use
that occurs after you notify us orally or in writing of the loss, theft or possible unauthorized
use at: Genesis FS Card Services, P.O. Box 4477, Beaverton, OR 97076,
1-888-260-4532. In any case, your liability will not exceed $50.
OUR RIGHTS, AND HOW THEY AFFECT YOU
Telephone Monitoring and Recording
You consent and agree that, from time to time, except as restricted by applicable law, we
may monitor or record telephone calls regarding your Account, suppress caller
identification services and use an automated dialing and announcing system or
pre-recorded messages for account management purposes, including calls made for
account collection purposes. If you provide us with a cellular phone number either as part
of your Application, or at any time thereafter, including, without limitation, after your
Account is in a default status, you are expressly consenting that we, our agents and
successors in interest, subject to any limitations of applicable law, may (1) contact you at
that number including by text message, and (2) use automated telephone dialing
systems to initiate such contacts and/or leave recorded messages. For Text Messages:
Message and data rates may apply.
In accordance with applicable law, we or our representatives may contact you from time
to time regarding your Account, or to ask for additional information about you or your
experience with us. You agree that such contacts are not unsolicited and may include
contacts at your home or place of employment, during weekdays, weekends or holidays,
on your mobile telephone, voicemail or answering machine, or by email, fax, recorded
message, text message or personal visit.
Email
If you provide us at any time with an email contact for your Account, you agree we may
use that email address to contact you about your Account and may send you information
about products and services related to your Account. If, at any time, you would like to
limit the types of communications you receive from us by email, please contact us at
Genesis FS Card Services, P.O. Box 4477, Beaverton, OR 97076, 1-866-946-9575, or, if
you receive an email from us, you can select the “unsubscribe” link that is located in
every email.
Refunds

We calculate interest for each balance segment as follows:
1. For each day, we take the beginning balance of each balance segment in
the billing cycle, including any unpaid interest charges, add any new
purchases and debits, and then subtract the applicable portion of any
payments and credits. This gives us the daily balance. Late Payment Fees,
Returned Payment Fees, and Documentation Fees are not included in the
daily balance.
2. Then, we add all the daily balances for the billing cycle together and divide
the total by the number of days in the billing cycle. This gives us the average
daily balance.
3. Next, we multiply the daily periodic rate by the average daily balance.
4. Finally, we take the resulting number from #3 and multiply it by the number
of days in the billing cycle. This gives us the interest charge for each balance
segment for the billing cycle.

If Retailer agrees to give a refund, you will accept a credit on your Account instead of a
cash refund.

OTHER FEES

You authorize us to make or have made any credit, employment, or other investigative
inquiries we deem appropriate to extend you credit or collect amounts owed to us on
your Account. We (including any assignee of the Account or amounts owing under the
Account) may also obtain information about you from credit reporting agencies or others
at any time and use it for the purposes of monitoring your credit performance, managing
your Account and considering you for new offers and programs.

In addition to interest charges, other fees may be applied to your Account, as set forth
below. The amounts of these fees may change from time to time during the term of your
Account.
Late Payment Fee
If we do not receive your monthly minimum payment due by the Closing Date of the
Billing Cycle in which the Payment Due Date occurs and the amount past due on your
Account is more than $9.99, we will apply a Late Payment Fee to your Account. The Late
Payment Fee is $28 if we did not charge a Late Payment Fee during any of the prior six
billing periods. Otherwise, the Late Payment Fee is $39. The Late Payment Fee will
never exceed the amount of your most recently required monthly minimum payment.
Returned Payment Fee
If any payment on your Account is returned to us unpaid for any reason, we will apply a
Returned Payment Fee to your Account. The Returned Payment Fee is $28 if we did not
charge a Returned Payment Fee during any of the prior six billing periods. Otherwise, the
Returned Payment Fee is $39. The Returned Payment Fee will never exceed the
monthly minimum payment.
Documentation Fee
You may request a copy of a monthly statement previously sent to you for a
Documentation Fee of $3 per statement, which fee we will charge to your Account.
Copies of sales tickets or other items posted to your Account may be obtained for a
Documentation Fee of $10 per sales ticket or other item, which will be applied to your
Account. Notwithstanding the foregoing, we will not impose any fee in connection with a
good faith assertion of a billing error or other exercise of your Billing Rights (see below
under “Your Billing Rights - Keep This Notice for Future Use”).

No Waiver of Rights; Disputed Amounts
We can accept late or partial payments without losing any of our rights under this
Agreement. You agree not to send us partial payments marked “paid in full,”
“without recourse,” or similar restrictive language. If you send such a payment, we
may accept it without losing any of our rights under this Agreement. All written
communications concerning disputed amounts, including any check or other
payment instrument that indicated that the payment constitutes “payment in full”
of the amount owed or that is tendered with other conditions or limitations or as
full satisfaction of a disputed amount, must be mailed or delivered to Genesis FS
Card Services, P.O. Box 4499, Beaverton, OR 97076.
Credit Reports and Information

Notice of Inaccurate Information
If you believe that we have information about you that is inaccurate or that we have
reported or may report to a credit reporting agency information about you that is
inaccurate, please notify us of the specific information that you believe is inaccurate by
writing to us at Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
Default and Collection. Unless prohibited by applicable law, your Account is
considered to be in default if (1) you fail to make the required monthly minimum payment
due on or before its payment due date, including if your payment is returned or cannot be
processed and you do not correct that failure within 31 days, (2) you try to exceed or do
exceed your Credit Limit without permission and do not bring your Account back under
your Credit Limit within 31 days, (3) you become subject to bankruptcy or insolvency
proceedings, (4) you become subject to attachment or garnishment proceedings, (5) you
give us any false information or signature, (6) you die, or (7) you fail to comply with any
portion of this Agreement. Our accepting a late or partial payment does not waive default.
Default on this Account will constitute default on all accounts you hold with us.
Subject to any notice of default and right to cure or other restrictions of applicable law, if
you are in default, we may declare the entire balance due immediately. Except as
provided in the Arbitration Provision below, you agree to pay our reasonable costs and
attorneys’ fees and expenses related to the collection of your Account to the extent
permitted by applicable laws.

MILITARY LENDING ACT

Change of Terms

The Military Lending Act provides protections for Covered Borrowers. The
provisions of this section apply to Covered Borrowers. If you would like more
information about whether you are a Covered Borrower, you may contact us at

Subject to the limitations of applicable law, we may, at any time, change or remove
any of the terms and conditions of, or add new terms or conditions to, this
Agreement. If required by applicable law, we will mail written notice of such a

Page 2 of 4
0000000000000000 000001 0003 0005 0 1 0 0 0

FEB 1993-1
2oz - #10 - 1 - 2

change to you in the manner required by such law. As of the effective date, the
changed or new terms will apply to new Purchases and to the outstanding balance
of your Account, subject to the limitations of applicable law.
Delay in Enforcement
We can delay enforcing our rights under this Agreement without losing them.
OTHER PROVISIONS
Ownership and Use of Your Account
As the Accountholder(s), you are liable for all Credit obtained under your Account. If you
authorize another person to use your Account Number, you are liable for any Credit
obtained on your Account for as long as that person holds or uses the Account Number.
Misuse of your Account by an authorized person will not be considered unauthorized
use. See “Lost Account Number and Unauthorized Use” above.
Transactions
You will retain for statement verification purposes your copy of each Purchase
transaction receipt from Retailer.
Refunds for Goods and Services
Refunds for goods and services are governed by Retailer. Any refunds for goods or
services purchased from Retailer through an extension of Credit on your Account will be
issued as a credit adjustment to your Account. When we are notified by Retailer of any
refund amount, we will subtract an amount equal to the refund amount from your
Account. However, the fixed minimum payment amount attributable to the related
Purchase transaction amount will continue to be included in your monthly minimum
payment. If a refund amount results in a credit balance on your Account, we will refund
your credit balance.
Transfer and Termination of Your Account
You may not transfer your Account to any other person. We may assign your Account or
amounts you owe on your Account to any other person at any time and the assignee will
take our place under the Agreement with respect to all agreements and interests
transferred. You must pay the assignee and otherwise perform your obligations under the
assigned agreements and interests. Either you or we may terminate or suspend your
Credit privileges at any time, with or without cause and with or without advance notice,
but you will remain liable for all charges until they are paid in full. You may cancel your
Account at any time by writing to us at Genesis FS Card Services, P.O. Box 4477,
Beaverton, OR 97076. If you have a joint Account and want to remove one of the names
from the Account, we must receive a written request signed by both of the
Accountholders on the Account. No party is released from the obligation for the balance
owing on a joint Account, unless we agree to the arrangements in writing. You may have
to re-apply for an individual Account when you request a change from a joint Account to
an individual Account.
Additional Benefits and Services
From time to time, we may offer you benefits and services with your Account. We or
another party may provide these benefits and services. Unless expressly made a part of
this Agreement, and except as provided in the Arbitration Provision below, any such
benefits and services are not a part of this Agreement, and are subject only to the terms
and conditions outlined in the benefits or services brochure and other official documents
provided to you with respect to the benefits and services. We may adjust, add, or delete
benefits or services at any time in accordance with the brochures or documents you
receive. Except as required by applicable law, we are not liable for benefits or services
that other parties provide or for their actions or omissions.
Honoring Your Account

matter what happens to your Account, including the closing of your Account. Except as
expressly provided below, you and we must arbitrate individually, by binding arbitration
under the Federal Arbitration Act (“FAA”), any dispute or claim between you, any joint
Accountholder and/or Authorized User, on the one hand, and us , our affiliates and
agents, on the other hand, if the dispute or claim arises out of or is related to (a) this
Agreement (including without limitation, any dispute over the validity of this Agreement to
arbitrate disputes or of this entire Agreement), or (b) your Account, or (c) any relationship
resulting from this Agreement, or (d) any insurance or other service related to your
Account, or (e) any other agreement related to your Account (including prior agreements)
or any such service, or (f) breach of this Agreement or any other such agreement,
whether based on statute, contract, tort or any other legal theory (any “Claim”). However,
we will not require you to arbitrate any individual Claims in small claims court or your
state’s equivalent court, so long as it remains an individual case in that court.
YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE
ATTORNEY GENERAL ACTION AGAINST US IN COURT OR ARBITRATION. ALSO,
YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY
ACCOUNTHOLDER WHO IS NOT A JOINT ACCOUNTHOLDER WITH YOU OR AN
AUTHORIZED USER ON YOUR ACCOUNT (AN “UNRELATED ACCOUNTHOLDER”),
AND YOU AGREE THAT NO UNRELATED ACCOUNTHOLDER MAY BRING ANY
CLAIMS AGAINST US ON YOUR BEHALF. CLAIMS BY YOU AND AN UNRELATED
ACCOUNTHOLDER MAY NOT BE JOINED IN A SINGLE ARBITRATION. THE
ARBITRATOR WILL NOT HAVE THE POWER TO CONSIDER SUCH CLASS,
REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTIONS OR ANY SUCH
CLAIMS YOU BRING ON BEHALF OF AN UNRELATED ACCOUNTHOLDER.
Judgment on the arbitration award may be entered in any court having jurisdiction. Any
dispute regarding whether a particular controversy is subject to arbitration, or the
applicability or enforceability of the foregoing paragraph, will be decided by a court and
not by an arbitrator.
If you or we elect to arbitrate a claim, the electing party must notify the other party in
writing. The notice can be given after the beginning of a lawsuit and can be given in
papers filed in the lawsuit. Otherwise, your notice must be sent to Genesis FS Card
Services, Attn: Arbitration Demand, P.O. Box 4477, Beaverton, Oregon 97076, and our
notice must be sent to the most recent address for you in our files. The arbitration will be
administered by the American Arbitration Association (the “AAA”) under its rules in effect
at the time an arbitration is commenced that are applicable to the resolution of consumer
disputes (the “Arbitration Rules”). We will tell you how to contact the AAA and how to get
a copy of the Arbitration Rules without cost if you ask us in writing to do so. The
Arbitration Rules permit you to request deferral or reduction of the administrative fees of
arbitration if paying them would cause you a hardship. In addition, if you ask us in writing,
we will consider your request to pay any or all of your costs of arbitration.
Each arbitrator shall be a licensed attorney who has been engaged in the private practice
of law continuously during the ten years immediately preceding the arbitration or a retired
judge of a court of general or appellate jurisdiction. The arbitration award shall award
only such relief as a court of competent jurisdiction could properly award under
applicable law, including attorneys’ fees if allowed by applicable law or agreement. All
statutes of limitation, defenses, and attorney-client and other privileges that would apply
in a court proceeding will apply in the arbitration.
If any provision of this Section regarding arbitration of disputes shall be deemed to be
unenforceable, the remainder of this Section shall be given full force and effect. However,
if the provision precluding class, representative or private attorney general Claims in
arbitration is deemed unenforceable, then this entire Arbitration Agreement shall be void
and of no force and effect.

We are not liable for the failure or refusal of Retailer to accept your Account Number.
Although you may have Credit available, we will not be liable for the failure to authorize
Credit due to operational difficulties or mistakes. Transactions made above a certain
dollar amount may require that we authorize the transaction before the transaction is
approved. In addition, we may limit the number and amount of daily transactions
approved for security reasons.

You may reject this provision, in which case only a court may be used to resolve any
dispute or claim. Rejection will not affect any other aspect of the Agreement. To reject
this Provision, you must send us a notice within 60 days after you open your Account or
we first provide you with a right to reject this Provision. This notice must include your
name, address and Account number and be mailed to Genesis FS Card Services, Attn:
Arbitration Provision, P.O. Box 4477, Beaverton, Oregon 97076. This is the only way you
can reject this Provision.

Change of Address, Employment and Telephone

YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE

We will send all written notices and statements to your address as it appears on our
records. To avoid delays and missed payments that could affect your credit standing, you
agree to promptly advise us if you change your mailing address, place of employment, or
telephone number.

This notice tells you about your rights and our responsibilities under the Fair Credit Billing
Act.

Severability
In the event that any provision of this Agreement is determined to be invalid or
unenforceable for any reason, the remaining provisions will remain in effect.
Entire Agreement; Interpretation
This Agreement (including the other documents incorporated herein by reference as
discussed above) constitutes the final expression of the credit agreement between you
and us relating to your Account. The headings used in this Agreement are for the
convenience of reference only and are not intended to define or describe the scope or
intent of any portion of the Agreement.
Governing Law. Except as expressly set forth in the Arbitration of Disputes Provision in
the Agreement, this Agreement and the interpretation and enforcement thereof (including
but not limited to the exportation of interest rates) will be governed by Federal law that
applies to us and, to the extent not preempted by Federal law, the laws of the State of
Utah, without regard to its conflicts of law provisions and principles. If there is any conflict
between any of the terms and conditions of the Agreement and applicable Federal or
State law, this Agreement will be considered changed to the extent necessary to comply
with the applicable law.
Arbitration of Disputes Provision. PLEASE READ THIS ARBITRATION OF
DISPUTES PROVISION CAREFULLY. UNLESS YOU SEND US THE REJECTION
NOTICE DESCRIBED BELOW, THIS PROVISION WILL APPLY TO YOUR ACCOUNT,
AND MOST DISPUTES BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL
ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL
RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A
CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS INFORMATION WILL BE
AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED. THIS ARBITRATION OF
DISPUTES PROVISION DOES NOT APPLY TO YOU IF, AS OF THE DATE OF THIS
AGREEMENT, YOU ARE A MEMBER OF THE ARMED FORCES OR A DEPENDENT
OF SUCH MEMBER ENTITLED TO PROTECTION UNDER THE FEDERAL MILITARY
LENDING ACT. PLEASE SEE THE SECTION OF THIS AGREEMENT LABELED
“MILITARY LENDING ACT.” IF YOU WOULD LIKE MORE INFORMATION ABOUT
WHETHER YOU ARE ENTITLED TO PROTECTION UNDER THE FEDERAL MILITARY
LENDING ACT, YOU MAY CONTACT US AT 1-866-502-6439.
This provision replaces any existing arbitration provision with us and will stay in force no

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, please write to us at: Genesis FS Card
Services, P.O. Box 4499, Beaverton, OR 97076.
In your letter, give us the following information:
• Account information: Your name and Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least three (3) business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors, and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit line.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will then send you a

Page 3 of 4
0000000000000000 000001 0004 0005 0 1 0 0 0

FEB 1993-1
2oz - #10 - 1 - 3

statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question, even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases
If you are dissatisfied with the goods or services that you have purchased with your
Account, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been
more than $50. (Note: Neither of these are necessary if your Purchase was
based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your Account for the Purchase. Purchases made with
cash advances from an ATM or with a check that accesses your Account do
not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase, contact
us in writing at: Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.
Your Genesis Credit Account is issued by:
First Electronic Bank
2150 South 1300 East #400
Salt Lake City, Utah 84106

Page 4 of 4
0000000000000000 000001 0005 0005 0 1 0 0 0

FEB 1993-1
2oz - #10 - 1 - 3

